           MANAGEMENT LETTER
           REPORT NUMBER 13-10




MANAGEMENT ADVISORY COMMENTS IDENTIFIED IN
        THE ENGAGEMENT TO AUDIT THE
 CONSOLIDATED FINANCIAL STATEMENTS FOR THE
       YEAR ENDED SEPTEMBER 30, 2012

               March 20, 2013
Date
March 20, 2013
To
Acting Public Printer
From
Inspector General
Subject
Management Advisory Comments
Report Number 13-10


KPMG LLP (KPMG), under contract to the United States Government Printing Office
(GPO), Office of Inspector General (OIG), was engaged to audit GPO’s consolidated
financial statements as of and for the year ended September 30, 2012. In connection
with the audit engagement, KPMG also considered GPO’s internal controls over
financial reporting and compliance with certain provisions of applicable laws,
regulations, and contracts that could have a direct and material effect on the
consolidated financial statements. Providing opinions on the effectiveness of GPO’s
internal control over financial reporting and on compliance with laws, regulations,
and contracts was not an objective of the engagement, and accordingly, such
opinions were not provided.

However, certain matters were noted during the course of the engagement. This
report was prepared to provide information to management that could help in the
development of corrective actions for the management advisory comments
identified in the engagement. These findings and recommendations are presented
in this report.

KPMG is responsible for the attached management advisory comments and the
conclusions expressed in this report. However, in connection with the contract, we
reviewed KPMG’s management advisory comments and related documentation and
inquired of its representatives. Our review disclosed no instances where KPMG did
not comply, in all material respects, with contract requirements.
Acting Public Printer
Report 13-10
March 20, 2013
Page 2 of 2


If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 512-0039.




MICHAEL A. RAPONI
Inspector General

Attachment

cc:

Assistant Public Printer, Operations
General Counsel
Chief Financial Officer
